-KKXo
No.

Supreme Court, U.S.
PILED

In The

MAR 3 0 2021
Supreme Court of the United States

OFFICE OF THE CLERK

ARTHUR O. ARMSTRONG

Petitioner
vs.
NORTH CAROLINA,
FARRIS and THOMAS LAW,
JOSEPH WHITLEY,
BESSIE JONES,
NINA A. KNIGHT,
MARJORIE A. EVANS,
Respondents.

Petition For writ Of Certiorari

ON PETITION FOR WRIT OF CERTIORARI
TO THE SUPREME COURT OF NORTH CAROLINA

Petition for Writ of Certiorari

Arthur 0. Armstrong, Pro se
8113 Pleasant Hill Road
Elm City, NC 27822
252-236-7912

i
QUESTIONS PRESENTED
1. Whether respondent, Charles Farris, acted with gross negligence to deprive appellant of
his 8468 Orchard Road farm house and % acre of land when appellee failed to investigate every
phase of the case prior to the action or investigated every phase of the case prior to the action
but failed to discover or discovered that appellant was entitled to the property but acted with
active connivance in the making of the deed and deeded the property to Bessie and John Jones.
2. Whether appellees conspired against the appellant to deprive the appellant of property
given to him in the Will.
3.

Whether appellee Thomasine E. Moore acted with gross negligence when she said,

"Appellant wants something he is not entitled to."
4.

Whether appellee Joseph Whitley deprived appellant of his property when appellee

acted with deceased Fannie P. Armstrong false reports and other conduct amounting to official
discrimination to deprive appellant of property without due process of law in violation of the
Will and Last Testament.

ii
PRECEEDINGS AND RELATED CASES
All the parties appear in the caption of the case are on the cover page
RELATED CASES
Armstrong v North Carolina, et al No. 03-CvS-01939-MFF; Wilson County Superior Court;
Judgment entered December 23 2020.
Armstrong v North Carolina, et al; No. 41-P-17-7, Supreme Court of North Carolina, Judgment
entered March 10, 2021.
There is no parent or publicly held company

owing 10 % or more of the corporate stock.

TABLE OF CONTENT
Questions Presented

......................................

i

Disclosure statement

......................................

i
ii

Table of content..................................................
Table of Authorities Cited..................................
Opinion Below....................................................
constitutional and statutory provisions involved

1
1
1

statement of the case........................................

2

Reason for granting the petition........................

5

Conclusion................................ ..........................

5

Jurisdiction statements......................................

INDEX TO APPENDIX
APPENDIX A: On March 10,2021 the Supreme Court of North Carolina dismissed appellant's
motion for relief.
APPENDIX
motion:

On December 23,2020 trial court dismissed petitioner's complaint and denied his

APPENDIX B: Constitutional and statutory provisions involved in the case set out with
appropriate citations.

1
JURISDICTION
From the state court, the date on which the Supreme Court of North Carolina decided my case
was March 10,2021
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
Constitutional Provisions
Fourth Amendment
Fourteenth Amendment
Statutory Provisions
28 U.S.C.S 1254(1)
28 U.S.C.S. 1291
28 U.S.C.S. 1746
42 U.S.C.S. 1985 & 1986
Set out verbatim the constitutional and statutory provisions involved in the case at Appendix
B.

2
STATEMENTS OF THE CASE
1. Petitioner resides at 8113 Pleasant Hill Road, Elm City, North Carolina 27822.
2. The appellees acted in a conspiracy.
3. In the furtherance of such a conspiracy, on December 12,1991 respondents failed to
conform to the requirements of the federal constitution and laws of the United States when
respondent acted with reckless indifference and wanton disregards for the truth or
falsity and the rights of petitioner and others when respondents, without probable
cause, acted with including but not limited to: arbitrariness, capriciousness, malice,
fraud, deceit,, extortion, trickery, RICO racketeering, pattern of racketeering activity,
misrepresentation, distortion, highway robbery, kidnapping, carjacking, harassment, elusive
defamation, when appellees conspired to go in disguise on the highway and the premise
thereof for the purpose of depriving, either directly or indirectly the equal protection of the law
or of equal privileges and immunities under the law; or for the purpose of hindering or
preventing the constituted authorities within any State or Territory from giving or securing to
the appellant within any State or Territory the Equal Protection of the law to deprive appellant
of property without due process of law when appellee Charles P. Farris failed to investigate
every phase of the case prior to the action, or investigated every phase of the case prior to the
action by failed to discover or discovered the existence of a bon a fide Will and Last Testament
but acted with active connivance in the making of a bogus Deed and other conduct amounting
to official discrimination clearly sufficient to constitute denial of rights protected by the Equal
Protection Clause to deprive the appellant of his property without due Process of law in
violation of the Fourteenth Amendment to the Constitution of the United States and abolished

3
Will and Testament.
Appellee Joseph Whitley acted with gross negligence when he acted with deceased
Fannie P. Armstrong false reports and other conduct amounting to official discrimination clearly
sufficient to constitute denial of rights protected by the Equal Protection Clause to deprive
petitioner of property without due process of law in violation of the Fourteenth Amendments
to the Constitution of the United States when appellee appointed as administrator for the
Armstrong Estate to deprive the Appellant of property without due process of law when
appellee distributed the property without a death certificate, a prerequisite for such a position.
4. Appellee Nina A. Knight acted with a breach of fiduciary responsibility when she made
false report to the probate court when she said to the clerk that mother passed away to
deprive appellant of his 8468 Orchard Road farm house in violation of the Will and Last
Testament.
5. 42 U.S.C.S. 1985 prohibits conspiracy to interfere with civil rights and 1986, proscribes
knowing neglect to prevent (or aid or abet after the fact) such a conspiracy.
6. Appellees aided and abetted after the fact such a conspiracy.
7. Each conspirator had knowledge of the wrongs conspired to be done and had the
power to prevent or aid in the preventing of commission of same but refused or
neglected so to do.
8.

That each conspirator did some act and omitted some duty and as a result of the

commission, appellant was deprived of having and exercising any right or privilege of a citizen
of the United States.
9.

As a direct and proximate result of the action of the respondents, petitioner suffered

continuing injuries including but not limited to: mental distress, injury to his reputation, psychic

4
injury. Mental anguish, harassment and humiliation. I pray for judgment in the sum in excess of

$10,000.00.
WHEREFORE, petitioner prays for judgment in the sum in excess of $10,000.00 under
42 U.S.C.S. 1985 and 1986 - Civil Rights Acts as follows:
1. Compensatory and punitive damages in the sum in excess of $10,000.00.
2. Intangible harm
3. Attorney's fee under 42 U.S.C.S. 1988, Attorney's Award Act; of as a
component of punitive damages
4. Costs and Expenses of this action and such other and further relief as the Court
deems just and proper
Respectfully submitted this the 24th day of March, 2021.
Respectfullysubmitted,

Arthur O. Armstrong, Petitioner
8113 Pleasant Hill Road
Elm City, NC 27822

VERIFICATION
I, Arthur O. Armstrong, being first duly sworn, deposes and says that he is the Petitioner in
the foregoing matter and that the allegations set forth in the Complaint are true and correct
to the best of his knowledge and belief, except for those allegations set forth on information
and belief and as to those allegations he believes them to be true.

March 24,2021

Arthur ffl. Armstrong, Petitioner
8113 Pleasant Hill Road
Elm City, NC 27822

5
AFFIDAVIT OF ARTHUR O. ARMSTRONG
I swear under penalty of perjury, under United States law that the within and foregoing statements set
forth in the verification are true and correct (28 U.S.C.S. 1746.).
March 24,2021

Arthur O. Armstrong, Petitioner

REASONS FOR GRANTING THE PETITION
The petition for a writ of certiorari should be granted on a federal question that the Supreme Court
of North Carolina has decided an important question of federal law that has not been but should be
settled by this Court or has decided an important question in a way that conflicts with relevant decision
of this Court.
CONCLUSION
Because of the conduct of the respondents, petitioner respectfully requests that petitioner
for a writ of certiorari be granted.

March 24,2021

Arthur 0. Armstrong, Petitioner

